WAIVER
Supreme Court of the United States
No.

20-1418

v.

Sepideh Cirino
(Petitioner)

Ocwen Loan Servicing LLC, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
MI

I am filing this waiver on behalf of all respondents.

to

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States, (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I am not presently a Member of the Bar of this Court. Should a response be requested, the
. m mber. (Piling Instructions: Mail the original signed form
response will be filed by a Baj_
to: Supremert, Attn: C Crk's ffice, 1 First Street, NE, Washington, D.C. 20543).

Signature
Date:

/

L I 2-<7 Z(

(Type or print) Name
Mr.
Firm.

Gary E. Devlin
0 Ms.

0 Mrs.

0 Miss

Hinshaw & Culbertson, LT,P

Address 350 South Grand Avenue, Suite 3600
City & State Los Angeles, CA
Phone 310-909-8000

Zip 90071
Email gdevlin@hinshawlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED
Ms. Sepideh Cirino
27495 Hidden Trail Rd
Laguna Hills, CA 92653-5875

RECEIVED
APR 2 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

MOHINSHAW

HINSHAW & CULBERTSON LLP
Attorneys at Law
350 South Grand Avenue, Suite 3600
Los Angeles, CA 90071-3476
310-909-8000
310-909-8001 (fax)
www.hinshawlaw.com

Robin Mojica
310-909-8042
rmojica@hinshawlaw.com

April 20, 2021
VIA OVERNIGHT MAIL
Clerk's Office
UNITED STATES SUPREME COURT
1 First Street, NE
Washington, D.C. 20543
Re:

Sepideh Cirino v. Ocwen Loan Servicing, et al.
SCOTUS Case No.: 20-1418

Dear Clerk:
At the court's direction, enclosed please find the original of the RESPONDENTS'
WAIVER signed by attorney Gary E. Devlin. If you have any questions or comments, please do
not hesitate to call our office.
Thank you.
Very truly yours,
HINSHAW & CULBERTSON LLP

Robin Mojica
Legal Secretary to
GARY E. DEVLIN
:rm
Encl.

1022716\307961675.v1

